                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




SPECIAL REVIEW
Issues Pertaining to the Termination of Ms.
Donna Busche, a Contractor Employee at the
Waste Treatment Plant Project




 DOE/IG-0923                          October 2014
                                  Department of Energy
                                    Washington, DC 20585
                                        October 17, 2014

MEMORANDUM FOR THE SECRETARY


FROM:          Gregory H. Friedman
               Inspector General

SUBJECT:       Special Review of "Issues Pertaining to the Termination of Ms. Donna Busche, a
               Contractor Employee at the Waste Treatment Plant Project"

On March 6, 2014, the Office of the Secretary of Energy requested that the Inspector General
review the circumstances surrounding the February 18, 2014, termination of the employment of
Ms. Donna Busche by URS Energy and Construction, Inc. (URS). URS is a major subcontractor
under the Department of Energy's contract with Bechtel National, Inc. (Bechtel) to design and
construct the multi-billion dollar Waste Treatment and Immobilization Plant (WTP) at the
Department's Hanford Washington Site. Ms. Busche asserted whistleblower status based on the
disclosure of what she believed to be technical and safety concerns regarding the WTP. She also
asserted that her termination was in retaliation for these disclosures.

Because of a material scope limitation, we were unable to reach a conclusion in this matter. In
short, Bechtel and URS told us that they could not provide access to several thousand contractor-
generated emails and other documents that we believe were necessary to perform our
examination of the Busche termination. On the advice of outside counsel, both contractors took
the position that the documents in question were subject to either attorney-client or attorney work
product privilege. Also, URS made a unilateral determination that certain documents were not
relevant to our examination. Specifically, Bechtel withheld 235 documents and URS withheld
4,305 documents. Of the 4,305 withheld documents, URS' attorney eventually agreed to provide
access to a portion of the 2,754 documents that URS had concluded were non-responsive but
which were not subject to the asserted attorney-client privilege.

Attorneys representing both Bechtel and URS stated that the assertion of privilege was necessary
given the likelihood of litigation regarding the Busche matter. Their basic concern was that
releasing the documents to the Office of Inspector General would constitute a waiver of privilege
in future proceedings.

In this engagement, our document request relied on specific terms of the contract between
Bechtel and the Department and the related contract between Bechtel and URS. The contract
clauses to which we refer required both Bechtel and URS to, among other things, produce for
government audit all documents acquired or generated under the contract, including those for
which attorney-client and attorney work product privilege was asserted. It was the position of
counsel for both Bechtel and URS that these clauses were too broad and that they were
unenforceable, specifically in situations where litigation was either in process or was likely.
In this matter, it became apparent that there was a fundamental conflict between the need of the
Office of Inspector General to have full, unfettered access to all information it deemed relevant
to its examination and the position taken by Bechtel and URS and their respective outside
attorneys to protect their legal interests. However, at the end of the day, despite efforts by senior
Department officials, we did not have access to the full inventory of documents which we felt
were necessary to conduct our review. Thus, we were unable to complete our inquiry and
accordingly disclaim any opinion regarding the circumstances of Ms. Busche's termination.

cc:    Deputy Secretary
       Chief of Staff




                                                  2
